20-587
No.

."N

In The Supreme Court of the UnitecTStates L

n o. P
a

PAULA IDELE KELLER

v

: is-- *-J

SEP 2 5 '223
CFF:CR Or Thr- r: ’

United States Court of Appeals for the Ninth Circuit Respondent,
Case No. 17-1756202
On Petition for A Writ of Certiorari
To The Ninth Circuit Court of Appeals
PETITION FOR ETRAORDINARY WRIT OF MADAMUS
In Re: Paula Idele Keller = Pro Se Counsel of Record
12400 Ventura Boulevard, Suite 856
Studio City, California 91604
Telephone No. (310) 613-3767
E-Mail Address: paulakellerl2345@gmail.com

l

) •'J

l- •

Sivrr-'ne? Court, U.S.
r-'i: c:

Petitioner,
V.

i

n n r

;
;

PETITION FOR ETRAORDINARY WRIT OF MADAMUS
This Petition For Extraordinary Writ Of Mandamus will be an aid of the Court’s
Appellate Jurisdiction to demonstrate extraordinary exceptional circumstances to
warrant the exercise the Court’s discretionary powers as to why adequate relief in
this matter cannot be obtained in or from or by any other form or court pursuant to
Rule 20.1. Petitioner Paula Idele Keller avers that the issuance by the Court of an
extraordinary writ authorized by 28 U. S. C. §1651(a') is not a matter of right, but of
discretion that is sparingly exercised. To justify the granting of any such writ, the
petition must show that the writ will be in aid of the Court’s appellate jurisdiction,
that exceptional circumstances warrant the exercise of the Court’s discretionary
powers, and that adequate relief cannot be obtained in any other form or from any
other court. Petitioner Paula Idele Keller submits this Extraordinary Writ of
Mandamus precisely for that reason that is adequately demonstrated in the body of
this within pleading.
Petitioner Paula Idele Keller further avers that a petition seeking a writ authorized
by 28 U. S. C. $165lfal. §2241. or $2254(al shall be prepared in all respects as
required by Rules 33 and 34- This Petition is prepared properly and meets the
aforementioned requirements of Rule 33 and 34. Accordingly this petition contains
the proper and required captioned “/« re Paula Idele Keller [name of petitioner]” and
it does follow, insofar as applicable, the form of a petition for a writ of certiorari
prescribed by Rule 14. All contentions in support of this petition have been included
in this petition. Petitioner understands that the case will be placed on the docket
when 40 copies of the petition are filed with the Clerk and the docket fee is paid,
however, Petitioner Paula Idele Keller in a proceeding in forma pauperis pursuant
to Rule 39. Therefore Petitioner is filing the number of copies required for a petition
pursuant to Rule 12.2. together with a motion for leave to proceed informa pauperis,
a copy of which shall precede and be attached to each copy of the petition. The
petition will be served as required by Rule 29 (subject to subparagraph 4(b) of this
Rule).

2

QUESTIONS PRESENTED FOR REVIEW
1. Whether a Mortgage Loan Modification from a plaintiffs loan servicer is
sufficiently related to the meaning of “real estate-related transaction”
under the FHA to give rise to a right of action. (The 9th Circuit Court of
Appeals is Undecided on this question and No Published Opinion)
2. Whether Keller’s Criteria for Mandamus to Jury Trial was met?
3. Whether Keller’s Redacted Call Logs within RESPA Reports is
privileged or frivolous, and should be allowed to proceed to Appeal as
an indigent?
4. Whether the 9th Circuit Court’s certification that appeal is not taken in
good faith conflicts with a Pre Order of the 9th Circuit’s Order in Keller’s
Appeal 17-1756202 wherein Panel Judges inferred the following:
“Rather, this order is reviewable in an appeal from the final judgment,
and Keller can challenge it then.”
PARTIES TO THE PROCEEDINGS
The following were parties to the proceedings in the United States Court of
Appeals for the Ninth Circuit:
1. Paula Idele Keller filed an appeal from the United States District CourtN
for the Central District of California (Western Division)’s denial of her
petition for a Jury Trial of her Claims - Case No. 2:16-cv-09165-TJH(SKx).
2. Washington Mutual Bank, FA, California Reconveyance Corp., ALAW,
JP Morgan Chase Bank, N.A., Bank of America, N.A., Pite Duncan,
GCAT Management Systems Services, Selene Finance, LP, Quality Loan
Servicing Corp., McCarthy & Holthus, LLP, CAM IX Trust, were the named
respondents in the lower-court proceedings. The Honorable Terry J.
Hatter, Jr., United States District Court Judge for the United States District
Court for the Central District of California (Western Division) was the
presiding lower court judge.

3

3. The following are parties to the proceeding in this Court: Paula Idele
Keller is the Petitioner. The United States Court of Appeals for the Ninth
Circuit is the Respondent.
TABLE OF CONTENTS
OPINIONS BELOW

1

STATEMENT OF JURISDICTION

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...3
STATEMENT OF THE CASE

5

REASONS FOR GRANTING WRIT

13

CONCLUSION

22

APPENDICES Appendix A - Ninth Circuit Court of Appeals Order Denying
Appeal Under Arguable Merit Sept 26,2018
A
Appendix B District Court Judgment and Denied Motion for a New Trial
March 22, 2018
B
Appendix C Ninth Circuit Court of Appeals Order No 17-76202 Order
Denying Keller’s Appeal of District Court Denial of Discovery of Call Logs
by Bank Defendants is Reviewable in an Appeal From Final Judgment
C
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CASES
Allied Chem. Corp. v. Daiflon, Inc., 449 U.S. 33, 34-35 (1980)
Alford v. State, 170 Ala. 178, 188, 54 So. 213, 215 (1911)
Beacon Theatres Inc. v. Westover, 359 U.S. 500, 511 (1959)

4

6
11
4,9

Hahnemann Univ. Hosp. v. Edgar, 74 F.3d 456, 461 (3d Cir. 1996)
Coffman, 766 F.3d 1246, 1248 (11th Cir. 2014)
Dairy Queen Inc. v. Wood, 369 U.S. 469,472 (1962)

,4

13
4

E.E.O.C. v. Abercrombie & Fitch Stores, Inc., 135 S. Ct. 2028,
2032 (2015)............................................................................

11

Ex parte Thom, 788 So. 2d 140, 142 (Ala.2000)

11

Ex parte Thom, 788 So. 2d at 143 (citing Finance, Inv. & Rediscount
Co. v. Wells, 409 So. 2d 1341, 1343 (Ala. 198 1)...............................

11

Ex parte Thom, 788 So. 2d at 143 (quoting Committee Comments to Rule 38,
Ala. R. Civ. P.)
12
Ex parte Taylor, 828 So. 2d 883 (Ala.2001); Ex parte Thom, 788 So.
2d at 140.........................................................................................

12

..ilao, 103 F.3d at 782-84, 786

11

Lopez-Lukis, 113 F.3d 1187, 1187-88 (11th Cir. 1997)

6

Lytle v. Household Manufacturing, Inc., -U.S. -110 S. Ct. 1331, 108 L. Ed.
2d 504 (1990)............................................................................................ 9
Mallard v. United States Dist. Ct., 490 U.S. 296, 309 (1989)

5

Maldonado v. Flynn, 671 F.2d 729, 732 (2d Cir. 1982)

5

Montgomery & Florida Ry. v. McKenzie, 85 Ala. 546, 549, 5 So.
322(1888)..................................................................................
Pugh v. Calloway, 295 Ala. 139, 325 So. 2d 135 (1976)................
Simons, 247 U.S. 231 (1918).......................................................
Supreme Court Holding in Beacon Theatres Pp. 359 U. S. 501-511
5

11
12
4
7

Supreme Court Holding in Beacon Theatres Pp. 359 U. S. 504

7,8

Supreme Court Holding in Beacon Theatres Pp. 359 U. S. 506-511....
Tillery v. Commercial Nat'l Bank, 241 Ala. 653, 4 So. 2d 125 (1941)

9
11

W & H Mach; & Tool Co. v. National Distillers & Chem. Corp., 291 Ala.
517, 520, 283 So. 2d 173, 175-76 (1973).................................................... 11
Wilmington Trust v. United States Dist. Ct., 934 F.2d 1026, 1028
(9th Cir. 1991)................................................................................

5

Wooten v. Ivey, 877 So.2d 585, 588 (Ala. 2003)

11

Statutes The Alabama Constitution of 1901 Article I, § 11

11

7th Amendment U.S. Constitution

8,9

The Civil Rights Act of 1991 now permits Title VII cases to be tried
by jury, 42 U.S.C. § 198 la(c) 10 Rules 42(b) Federal Rules of Civil
Procedure..........................................................................................

6,7

Rule 57 of the Federal Rules of Civil Procedure

6,7

Alabama Rules of Civil Procedure, see Rule 2, Ala. R. Civ. P

12

Ala. R. Civ. P. Rule 38

11

Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure §
2302.1, at 29 (2d ed.1995); 1 Champ Lyons, Jr., Alabama Rules of Civil
Procedure Annotated § 2.2 at 24 (3d ed. 1996) (‘[Beacon Theatres]...........

13

STATEMENT OF JURISDICTION
The United States Supreme Court Exercises Jurisdiction over Final Appeals from
the 9th Circuit U.S. Court of Appeals under the All Writs Act, 28 U.S.C. § 1651.
The 9th Circuit decision was January 27, 2020 and this Petition is filed July 7,
2020 as such is not within the 90 days to seek Review in the United States
6

Supreme Court. The COVID-19 Pandemic caused the unusual delay. Paula Idele
Keller acquiesces to the wisdom of the United States Supreme Court to take
exception in this matter predicated on the COVID-19 Pandemic and to thereby
grant this Petition for Writ of Mandamus.
STATEMENT OF THE CASE
1. Application by the Appellant for a mandamus to require the Ninth Circuit
Court of Appeals to recall its Judgment and allow Keller to proceed in
Forma Pauperis and to order a Jury trial to hear Appellant’s Merits and
Legal Claims of dishonest Banking Practices, that sent this Country into a
recession and caused thousands of Citizens to lose their home to corrupt
banking practices is both regularly found and fair on its face held within
the appellate jurisdiction of this Court. As long ago as 1918, the Supreme
Court recognized mandamus as .the appropriate vehicle to cure erroneous
denials of a civil jury trial. (See In re Simons, 247 U.S. 231 (1918).)
2. Paula Idele Keller filed a Civil Suit in October of 2014 alleging Defendants
have discriminated in the making and servicing of said mortgage loans and
claims under Home Affordable Modification Program (HAMP) and Real
Estate Settle Procedures Act (RESPA).
3. Washington Mutual Bank, FA and its successors then moved to dismiss the
Complaint. In December of 2016, the Honorable Terry J. Hatter, Jr., United
States District Court for the United States District Court for the Central
District of California (Western Division) entered a Report and
Recommendation finding the complaint filed by Paula Idele Keller should
be dismissed with prejudice.
4. In October of 2016 Paula Idele Keller filed a motion to Reconsider the
Complaint to add additional claims and defendants. In January of 2017,
the District Court dismissed Keller’s claim with prejudice and denying
Keller’s motion to amend. In August of 2016, Keller appealed to the Ninth
Circuit Court of Appeals.
5. In July of 2018, the Ninth Circuit Appeals Court also found that Paula Idele
Keller was qualified as a borrower and was entitled to receive RESPA
information on her home loan. The Ninth Circuit Appeals Court did not

7

remand with instructions to the District Court to allow Keller to amend her
Complaint under RESPA and to address any proposed new claims and
defendants.
6. In March/April of 2018, pursuant to the failure of the Ninth Circuit Court
of Appeals to render an opinion, the District Court failed to order Paula
Idele Keller to file an amended complaint setting out the factual allegations
supporting her claims and adding any desired new defendants.
7. In May of 2017, Plaintiff filed a motion to amend the Complaint. The
Court did not grant the motion, and the Amended Complaint was never
deemed filed. In the amended complaint, Quality Loan Servicing Corp.,
McCarthy & Holthus, LLP and Mortgage Electronic Registration Systems,
Inc. were named as new defendants.
8. By September of 2017, Plaintiff identified Quality Loan Servicing Corp.,
McCarthy & Holthus, LLP and Mortgage Electronic Registration Systems,
Inc, as DOE Defendants.
9. Defendants moved to dismiss their identification pursuant to Federal Rules
of Civil Procedure Rules 8 and 12(b).
10. Paula Idele Keller filed a response in opposition to the motion to dismiss
and a motion for summary judgment. On June of 2017 the Court entered
an Order denying Defendants’ motion to dismiss with leave to renew and
denying Plaintiffs motion for summary judgement.
11. Plaintiff was referred to the Pro Se Assistance Program.
12. Paula Idele Keller filed her motion for reconsideration thereafter and the
Defendants filed a motion to dismiss the motion for reconsideration.
13. The Court abused its discretion by failing to grant 42 U.S.C. § 1981, §
1982, the Real Estate Settlement Procedures Act, 12 U.S.C. § 2601 and the
Fair Housing Act, 42 U.S.O § 3605.
14. Thereafter Defendants filed a motion to dismiss and Motion for Summary
Judgment along with memorandum of law.

8

15. Paula Idele Keller filed a Motion in Opposition for Summary Judgment
along with a Motion to allow Discovery to continue.
16. Thereafter the District Court denied all of Paula Idele Keller’s motions to
continue the discovery.
17. The District Court Judge entered a recommendation dismissing Paula Idele
Keller’s claims and the case was closed.
18. Paula Idele Keller filed Two more Motions to Vacate the Judgment citing
Fraud and unsettled material issues that should go to a Jury under State and
Federal Law; including a motion under 7th Amendment for a Jury to decide
Keller’s claims. 19. The District Court denied the motions to vacate and denied the motion for
a Jury Trial.

FACTS UNDISPUTED AND DESERVE TO GO TO A JURY
20. The loan sold to Plaintiff was a Predatory Lending Scheme, designed to fail
because of all the hidden fees and high interest rates and the Fraudulent
Misrepresentation in the closing involving an Oral Promise that was made
before signing of the paperwork.
21. The Defendants violated Plaintiffs equal rights to a fair closing by lying
about terms and making promises it had no intention of keeping.
22. The nature of the Defendants Fraudulent misconduct against Paula Idele
Keller is truly unconscionable and intolerable in a civil society, and is justly
deserving of this Court’s correction of the District Court decision to deny
a Jury trial.
23. The Defendant concealed the truth about the Oral contract, misrepresented
the facts, and outright lied to Paula Idele Keller to advance mortgages and
home loan and a Balloon Payment with an adjustable rate.
24. The Oral Agreement was that if Paula Idele Keller held the loan for two
years, the Defendant agreed to re-finance the loan with a fair interest rate.
9

The Oral Modification was to keep Keller from denying the Home Loan all
together.
25. Paula Idele Keller asked why the Defendant could not finance the house
with a fair interest rate as opposed to waiting two years? The Defendant’s
reply was because of credit rating. Nevertheless, on Defendant’s Oral
Promise, Keller signed the loan mortgage with the Defendant, which
carried a Balloon Payment and variable interest rates.
26. Paula Idele Keller did her best to kept her end of the commitment by
making payments for as long as possible in spite of the subprime mortgage
meltdown and thereafter she learned that the Defendant had sold the Loan
within the first year after making the Oral Promise.
27. After doing her best to make the usurious loans, Paula Idele Keller learned
that she did not own her home located at 920 W 29th Street, San Pedro,
California 90731 in that her home was illegally sold at an unlawful
foreclosure sale.
28. Paula Idele Keller did apply with JP Morgan Chase Bank, N.A., the
successor of Washington Mutual Bank, FA and told them about the Oral
Contract with Washington Mutual Bank, FA Bank to no Avail.
29. Paula Idele Keller continued struggle to pay the mortgage and to seek a
loan modification with the Defendant based on the Oral Contract.
30. The JP Morgan Chase Bank, N.A. customer service relations officer
assisted Paula Idele Keller with a modification and told her that due to her
hardship that her loan would be modified. However, during the
modification stage, the Lender said no, and the Defendant initiated at least
three illegal foreclosure attempts.
31. The Lender refused the modification citing that Paula Idele Keller had not
signed the Promissory Note, which was a lie. Appellant raised the
Operation of law, the Oral Promise and the fact that Keller was a signer on
the mortgage, the Deed of Trust and the Promissory Note.
32. Paula Idele Keller was forced to file a Civil Lawsuit to stop the illegal foreclosure
and ask the District Court to examine the acts of the Defendant as it concerns
10

Federal and State Laws; both Injunctive Relief and common law issues and suit
for treble damages for Fraud and Misrepresenting the Facts in the Closing.
33. Paula Idele Keller also raised her RESPA letters requesting information about
her mortgages to prove her ownership to facilitate her re-financing before the
District Court along with other claims such as the Foreclosure Action contained
time-barred debt. Summary judgment is not appropriate in Kellr’s case because
the pleadings and disclosure materials on file and affidavits show that there are
several genuine issues as to material facts and that the Defendant is/are not
entitled to a judgment as a matter of law. See Federal Rules of Civil Procedure
Rule 56(c)(2).
34. Summary judgment is not appropriate due to newly discovered or previously
unavailable evidence showing that Paula Idele Keller’s income was Fraudulently
inserted by the Defendant, that Defendant did in fact breach the Oral Promise,
showing ambiguity in the contract between the Defendant and Keller.
35. Therefore, the entire mortgage is void due to admitted Fraud and Breached by
the Defendant. Summary judgment is not appropriate due to a Rule 59(e) motion
may be justified by an intervening change in controlling law. The Ninth Circuit
Court of Appeals has an intervening change in controlling law of this circuit
as to affidavits sufficient to defeat Summary Judgment.
36. Paula Idele Keller did establish equitable tolling to withstand summary
judgment and that two of the elements of equitable tolling are reasonable
and good faith conduct in her seeking the Oral Promise made by Defendant.
37. Paula Idele Keller, under the Application of the 7th Amendment, has met
all four criteria to be able to have a trial heard by a jury under the 7th
Amendment.
38. Paula Idele Keller’s claim is a civil claim seeking money to compensate
loss from Defendants she is suing.
39. Paula Idele Keller’s claim is based on federal law and is in a federal court.
40. The lawsuit is worth more than $20 and it is still the threshold used to
decide if a trial by jury is allowed under the 7th Amendment.

11

41. The lawsuit is a claim for fraud in the sale of land and house of which the
English common law of 1791 would have allowed it to go to trial by jury
under the Constitution of the United States, Thus, any time money is
involved, it is a common lawsuit and eligible to be tried by jury.
42. Respect for juries an important part of the 7th Amendment is that it prohibits
judges in any court from overruling a jury’s findings unless there was some
violation of common law.
WHY WRIT OF MANDAMUS SHOULD ISSUE UNDER 7th
AMENDMENT RIGHT TO A JURY TO DECIDE CLAIMS
43. Comes now Paula Idele Keller and serves GROUNDS FOR the following
reasons: Litigants denied a civil jury trial Writ of Mandamus. Keller avers
that in general, a writ of mandamus is used only in very limited
circumstances, typically to order a lower court to perform a
nondiscretionary act or to reverse actions that “amount... to a judicial
‘usurpation of power.’ “Hahnemann Univ. Hosp. v. Edgar, 74 F.3d 456,
461 (3d Cir. 1996). The writ of mandamus, however, has found a special
niche in protecting the right to a jury trial. As long ago as 1918, the
Supreme Court recognized mandamus as the appropriate vehicle to cure
erroneous denials of a civil jury trial.
44. In re Simons, 247 U.S. 231 (1918). The court based its conclusion on
judicial economy-avoiding duplicative bench and jury trials-and the
convenience of prejudgment appeal to litigants. This reasoning survived
over the ensuing decades, and in 1959, the Supreme Court affirmed that
“[w]whatever differences of opinion there may be in other types of cases,
the right to grant mandamus to require jury trial where it [has] been
improperly denied is settled.” Beacon Theatres Inc. v. Westover, 359 U.S.
500, 511 (1959). Several years later, the court reiterated that courts of
appeals have the “responsibility to grant mandamus where necessary to
protect the constitutional right to trial by jury.” Dairy Queen Inc. v. Wood,
369 U.S. 469, 472 (1962).
45. Standard for Issuance of Mandamus. The Supreme Court has not, however,
resolved a disagreement over the proper standard for issuance of mandamus
when a jury trial denial is challenged. In other contexts, a writ of
mandamus is an extraordinary remedy, which requires a high threshold
showing that the petitioner has no other adequate means to secure the
12

requested relief and has a ‘“clear and indisputable’” right to the relief. See
Mallard v. United States Dist. Ct., 490 U.S. 296, 309 (1989).
46. Paula Idele Keller avers that several persons and entities have taken the
Supreme Court’s decisions in Dairy Queen and Beacon Theatres to mean
that the writ of mandamus should issue if a de novo review shows that the
district court erred in denying a jury trial, without the extraordinary
showing usually required for mandamus. See, e.g., Maldonado v. Flynn,
671 F.2d 729, 732 (2d Cir. 1982).
47. The Ninth Circuit Court of Appeals has stated the principle plainly: “The
right to a jury trial has occupied an exceptional place in the history of the
law of federal mandamus permitting a writ to issue although the petitioner
is unable to show a 'clear and indisputable' right.” Wilmington Trust v.
United States Dist. Ct., 934 F.2d 1026, 1028 (9th Cir. 1991).
48. The Supreme Court has instructed that “the remedy of mandamus is a
drastic one, to be invoked only in extraordinary situations” and “only
exceptional circumstances, amounting to a judicial usurpation of power,
will justify the invocation of this extraordinary remedy.” Allied Chem.
Corp. v. Daiflon, Inc., 449 U.S. 33, 34-35 (1980). See also Lopez-Lukis,
113 F.3d 1187, 14 1187-88 (9th Cir. 1997) (“[Mjandamus is an
extraordinary remedy, which is available only to correct a clear abuse of
discretion or usurpation ofjudicial power.”)
49. Notice the Supreme Court Holding in Beacon Theatres to mean that the
writ should issue if a de novo review shows that the district court erred in
denying a jury trial, without the extraordinary showing usually required for
mandamus. The High Court said “in anticipation of a suit by petitioner for
treble damages under the Sherman and Clayton Acts, the prospective
defendant brought suit against petitioner in a Federal District Court for a
declaratory judgment which would have settled some of the key issues in
such an antitrust suit and prayed that the bringing of such a suit be enjoined
pending outcome of the declaratory judgment litigation.” Petitioner filed a
counterclaim raising the issues which would have been raised in the
antitrust suit for treble damages and demanded a jury trial. Purporting to
act in the exercise of its discretion under Rules 42(b) and 57 of the Federal
Rules of Civil Procedure, the district court ruled that it would try in equity,

13

without a jury, the issues common to both proceedings before trying
petitioner’s counterclaim. The court of appeals held that the district ourt
had acted within the proper scope of its discretion, and it denied petitioner’s
application for a writ of mandamus requiring the district court to set aside
its ruling. Held: “the judgment of the court of appeals is reversed.” Pp.
359 U. S. 501- 511.
50. The Supreme Court then outline its decisions by points notice the plain
words of the Supreme Court “1. The district court’s finding that the
complaint for declaratory relief presented basically equitable issues draws
no support from the Declaratory Judgment Act, which specifically
preserves the right to a jury trial for both parties.” P. 359 U. S. 504. Paula
Idele Keller would claim this provision for her suit as it should proceed to
a jury as requested and as is just in law.
51. The Supreme Court then continues by point 2 of its decision it said; “If
petitioner would have been entitled to a jury trial in a treble damage suit,
she cannot be deprived of that right merely because the prospective
defendant took advantage of the availability of declaratory relief to sue
petitioner first.” R.359 U. S. 504. Paula Idele Keller would claim this
provision for her suit as it should also proceed to a jury as requested and as
is just in law as Keller has plead fraud within her lawsuit.
52. The Supreme Court then expands the deep reasoning its decisions, notice
the plain words of the Supreme Court in point it said “since the right to trial
by jury applies to treble damage suits under the antitrust laws and is an
essential part of the congressional plan for making competition, rather than
monopoly, the rule of trade, the antitrust issues raised in the declaratory
judgment suit were essentially jury questions.” P. 359 U. S. 504. Paula
Idele Keller would clearly claim this provision for her suit as it should also
proceed to a jury as requested and as is just in law as Keller has plead fraud
within her lawsuit.
53. The Supreme Court stated in point “4 - assuming that the pleadings can be
construed to support a request for an injunction against threats of lawsuits,
and as alleging the kind of harassment by a multiplicity of lawsuits which
would traditionally have justified equity in taking jurisdiction and settling
Page 359 U. S. 501 the case in one suit, nevertheless, under the Declaratory
Judgment Act and the Federal Rules of Civil Procedure, neither claim can
14

justify denying petitioner a trial by jury of all the issues in the antitrust
controversy.” Pp. 359 U. S. 506-511.
54. Appellant Paula Idele Keller hereby quotes the words of the Supreme Court
wherein it stated “today, the existence of irreparable harm and inadequacy
of legal remedies as a basis of injunctive relief must be determined not by
precedents under discarded procedures, but in the light of the remedies now
made available by the Declaratory Judgment Act and the Federal Rules of
Civil Procedure.” Pp. 359 U. S. 506-510. This is the direction Keller seeks
for her suit; may it please the court I seek the protection now available by
the Declaratory Judgment Act for my injunctive relief within her civil
complaint. Therefore as pointed out the Supreme Court would not allow
the erroneous use of discretion by the district court under Rule 42(b) to
deprive the petitioner in Beacon Theatres Inc. v. Westover, of a full jury
trial of the issues in the antitrust controversy. See P. 359 U. S. 508. The
Supreme Court in Point 5 stated that “mandamus is available under the All
Writs Act, 28 U.S.C. § 1651, to require jury trial where it has been
improperly denied.” P. 359 U. S. 511.
55. Nevertheless, we have no doubt that the courts below will heed the
command of Beacon Theatres, Inc. v. Westover, 359 U.S. 500, 79 S. Ct.
948, 3 L. Ed. 2d 988 (1959), and make certain that Appellants’ Seventh
Amendment right to jury trial of “legal” claims is not lost by a prior
determination of “equitable claims.”
56. Paula Idele Keller would also hope that this appeals court will send this
case back to the district court and ALLOW Discovery and a Trial by Jury
to move forward.

0

57. Paula Idele Keller’s threat to her 7th Amendment rights have becomes
concrete and seeks appropriate remedies currently to preserve her suit and
right to proceed to the jury phase there is no justification as to the complaint
not being clear. The multiple complaints and answers all-show that the
Defendants know exactly what this lawsuit is all about. Furthermore, the
Supreme Court has stated in Beacon that “we recognize that in appropriate
cases common issues impacting upon general liability or causation may be
tried standing alone. However, when such a common issue trial is
presented through or along with selected individuals’ cases, concerns arise
that are founded upon considerations of due process.” This understanding
15

was buttressed in Lytle v. Household Manufacturing, Inc., U.S. -110 S. Ct.
1331, 108 L. Ed. 2d 504 (1990).
58. Due process concerns and fundamental fairness contained in a system that
permits the extinguishment of claims or the imposition of liability. Such a
procedure is inherently unfair when the substantive rights of both plaintiff
and the defendant are resolved in a manner that lacks the requisite level of
confidence in the reliability of its result. The Supreme Court recognize that
due process concerns seem to blur distinctions between procedural and
substantive due process. Notice the plain language of the court. “However,
our difficulty in compartmentalization does not detract from the validity of
our concern that is ultimately based on fundamental fairness.” The
elements of basic fairness contained in our historical understanding of both
procedural and substantive due process therefore dictate that when a unitary
trial is conducted where common issues, issues of general liability, or issues
of causation are coupled with a sample of individual claims or cases, the
sample must be one that is a randomly selected, statistically significant
sample. See Hilao, 103 F.3d at 782-84, 786.
STATE OF CALIFORNIA RIGHT TO A JURY
59.

Paula Idele Keller’s claims also raise State Law and the Constitution
of California provides a right to jury trials in cases involving purely legal
claims, and equitable claims. See law and equity in Wooten v. Ivey, 877
So.2d 585, 588 (Ala. 2003) merged with the adoption of the California
Rules of Civil Procedure, after which jury trials were a constitutional right
if the issue was the sort that would have been tried to a jury before the
adoption of those rules. Following Beacon Theatres and Dairy Queen, the
Supreme Court of California holds that when both legal and equitable
claims are joined in one action, the trial judge must arrange the order of
trial.

60.

“This Court has long recognized that Article I, § 11, Constitution of
California, provides the right to a jury trial in those cases that involve purely
legal claims.” [1] See Ex parte Thorn, 788 So. 2d 140, 142 (Ala. 2000)
(quoting W & H Mach. & Tool Co. v. National Distillers & Chem. Corp.,
291 Ala. 517, 520, 283 So. 2d 173, 175-76 (1973)(citing in turn Tillery v.
CommercialNat'lBank, 241 Ala. 653, 4 So. 2d 125 (1941); Alford v. State,

16

170 Ala. 178, 188, 54 So. 213, 215 (1911); Montgomery & Florida Ry. v.
McKenzie, 85 Ala. 546, 549, 5 So. 322 (1888). It is equally well settled
that the constitution does not provide a right to a jury trial for the resolution
of factual issues for parties alleging equitable claims. See Ex parte Thorn,
788 So. 2d at 143 (citing Finance, Inv. & Rediscount Co. v. Wells, 409 So.
2d 1341, 1343 (Ala. 1981) (citing in turn Pugh v. Calloway, 295 Ala. 139,
325 So. 2d 135 (1976).
61.

However, since the merger of law and equity with the adoption of the
California Rules of Civil Procedure, courts have been presented with cases
that contain both issues to be tried by a jury and issues to be tried by the
court. In those cases, the test for determining whether a party has a right to
a trial by jury is: “‘[I]f an issue is of a sort which [before the adoption of
the California Rules of Civil Procedure] would have been tried to a jury,
then the party has a constitutional right to have it tried to a jury under the
merged procedure.’” Ex parte Thorn, 788 So. 2d at 143.

62. When legal and equitable claims are presented in one action, the trial court
must resolve the equitable claims in a way that does not impinge on a
party’s right to a jury trial as to the legal claims. See Ex parte Taylor, 828
So. 2d 883 (AIa.2001); Ex parte Thorn, 788 So. 2d at 140. Purely legal
claims, as well as factual issues common to the legal and equitable claims,
must be determined by a jury; the remaining issues are then to be decided
by the trial court. See Ex parte Taylor, 828 So. 2d at 883; Ex parte Thorn,
788 So. 2d at 140 decision on the equitable issues does not operate to deny
a jury trial of the legal issues. Factual issues common to the legal and
equitable issues must first be decided by the jury. We express no opinion
on whether the mix of claims that collectively make up the consolidated
case lend themselves to the sampling techniques required to conduct a
bellwether trial or whether this is an appropriate case for a stand-alone,
common-issue trial. “Accordingly, when both legal and equitable claims
are joined in one action, then, the trial judge must arrange the order of trial
so that the Judge’s decision on the equitable issues does not operate to deny
a trial by the jury of the legal issues. See Beacon Theatres, Inc. v. Westover,
359 U.S. 500, 510-11, 79 S. Ct. 948, 3 L. Ed. 2d 988 (1959) (stating that
'only under the most imperative circumstances, can the right to a jury trial
of legal issues be lost through prior determination of equitable claims’);

17

accord Crommelin v. Fain, 403 So. 2d 177, 185 (Ala. 1981). Thomason is
entitled to this provision under Trial by Jury in California.
63. A jury first must decide any factual issues that are purely legal in nature,
along with any factual issues common to the legal and equitable claims.
See Dairy Queen, Inc. v. Wood, 369 U.S. 469, 479, 82 S. Ct. 894, 8 L. Ed.
2d 44 (1962) (“holding that because the factual issues relating to the
petitioner's breach of contract claim [were] common with those upon which
[the] respondents’ claim to equitable relief [was] based, the legal claims
involved in the action [had to] be determined prior to any final court
determination of respondents’ equitable claims”); see also 9 Charles Alan
Wright & Arthur R. Miller, Federal Practice and Procedure § 2302.1, at 29
(2d ed.1995); (“[Beacon Theatres] held that the questions of fact common
to the legal and equitable [claims] must be decided first by the jury, for to
permit the court to make findings on these common issues of fact would
deprive the litigant of his right to [a] jury trial.”) Therefore, Paula Idele
Keller’s rights and claims must proceed to the Jury so that findings can be
made. Once those factual findings are made, the trial judge must determine
the remaining equitable issues. See Dairy Queen, 369 U.S. at 470, 82 S.
Ct. 894. In addition, those factual questions that are purely legal in nature,
as well as those common to the legal and equitable issues, must first be
decided by the jury. Dairy Queen, Inc., supra. Keller avers as did the High
Court wherein it stated in Beacon “we are sympathetic to the efforts of the
district court to control its docket and to move this case along. We also are
not without appreciation for the concerns a district court might have when
it concludes that some of the issues raised may be motivated by delay
tactics. However, our sympathies and our appreciation for the efforts of
the district court in this case do not outweigh our due process concerns.”
Keller filed this lawsuit in 2016 no one is more eager to get this matter
resolved not dispose of as common trash but to be decided by a Jury of her
peers. The Civil Rights Act of 199142 U.S.C. § 1981 Keller’s claim also
fall under 42 U.S.C. 1981 of which was amended in 1991, therefore, to
buttress her right to a Jury trial Thomason shows the following: The Civil
Rights Act of 1991 now permits Title VIII cases to be tried by jury. 42
U.S.C. § 1981a(c). (“Put simply, the plaintiff in any Title VII case may
establish a violation through a preponderance of evidence (whether direct
or circumstantial) that a protected characteristic played ‘a motivating
factor.’”); see also E.E.O.C. v. Abercrombie & Fitch Stores, Inc., 135 S. Ct.
2028, 2032 (2015).
18

CONCLUSION
Wherefore Paula Idele Keller would ask the United States Supreme
Court to issue this Writ under its Holding in Beacon Theatres, Inc. v.
Westover, wherein this High Court Stated that “Mandamus is available
under the All Writs Act, 28 U.S.C. § 1651, to require jury trial where it has
been improperly denied.” P. 359 U. S. 511. Therefore, make certain that
Thomason's Seventh Amendment right to jury trial of “legal” claims is not
lost. Keller suit has been dismissed and there is no other remedy as to
enforce Keller’s right to a Jury Trial as Motions to Vacate and Set Aside
and Motion for New Trial have all been denied by the District Court
“therefore denying Keller’s right to a Jury of his claims is judicial
usurpation of power.” See Coffman, 766 F.3d 1246,1248 (11th Cir. 2014).
Keller has no other adequate means to attain the relief he desires and that
his right to the issuance of the writ is clear and indisputable.
Wherefore, Paula Idele Keller prays that this Judicial Body is
satisfied, and that the writ is appropriate under the circumstances.
Respectfully Submitted By:

Date: September 25, 2020

'A

Paula Idele Keller”

19

